Cardmember Agreement: Part 1 of 2
As of: 06/30/2021

Schwab Investor Card® from American Express
Issuer: American Express National Bank

Rates and Fees Table
Interest Rates
Annual Percentage Rate
(APR) for Purchases
APR for Cash Advances
Penalty APR and When
it Applies

Prime Rate + 10.74% to Prime Rate + 13.74%
This is a variable APR. See Explanation of Variable Rates below.
Prime Rate + 21.99%
This is a variable APR. See Explanation of Variable Rates below.
Prime Rate + 26.74%
This is a variable APR. See Explanation of Variable Rates below.
This APR will apply to your account if you:
1) make one or more late payments; or
2) make a payment that is returned by your bank.
We may also consider your creditworthiness in determining whether or not to apply
the penalty APR to your Account.
How Long Will the Penalty APR Apply? If the penalty APR is applied, it will apply
for at least 6 months. We will review your Account every 6 months after the penalty
APR is applied. The penalty APR will continue to apply until you have made timely
payments with no returned payments during the 6 months being reviewed.

Plan Fee (Fixed Finance
Charge)
For Credit Card Tips from
the Consumer Financial
Protection Bureau

Your due date is at least 25 days after the close of each billing period. We will not charge
you interest on purchases if you pay each month your entire balance (or, if you have a
plan outstanding, your balance adjusted for plans) by the due date. We will begin
charging interest on cash advances on the transaction date.
A monthly fee up to 1.33% of each purchase amount moved into a plan based on the
plan duration, the APR that would otherwise apply to the purchase, and other factors.
To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Annual Membership Fee

None

Paying Interest

Transaction Fees
● Cash Advance
● Foreign Transaction
Penalty Fees
● Late Payment
● Returned Payment
● Overlimit

Either $10 or 5% of the amount of each cash advance, whichever is greater.
2.7% of each transaction after conversion to US dollars.
Up to $40
Up to $40
None

How we calculate interest: We use the Average Daily Balance method (including new transactions). See the How we
calculate interest section in Part 2.
Explanation of Variable Rates: If the Prime Rate increases, variable APRs (and corresponding DPRs) will increase. In
that case, you may pay more interest and may have a higher Minimum Payment Due. When the Prime Rate changes,
the resulting changes to variable APRs take effect as of the first day of the billing period. The Daily Periodic Rate (DPR)
is 1/365th of the APR, rounded to the nearest one ten-thousandth of a percentage point. The variable penalty APR will
not exceed 29.99%.

CMAEUAOT0000025

Page 1 of 3

How Rates and Fees Work
Rates
Penalty APR for new
transactions

The penalty APR may apply to new transactions if:
• you do not pay at least the Minimum Payment
Due by the Payment Due Date on one or more
occasions; or
• your payment is returned by your bank.
We may also consider your creditworthiness in
determining whether or not to apply the penalty APR
to your Account.

If the penalty APR applies to a balance, it will
apply to charges added to that balance 15 or
more days after we send you notice.
We will review your Account every 6 months
after the penalty APR is applied. The penalty
APR will continue to apply until you have made
timely payments with no returned payments
during the 6 months being reviewed.

Fees
We add fees to a purchase balance, unless we tell you otherwise.
Annual Membership
This fee is on the Rates and Fees Table on page 1 of Part 1. You may have up to 3 additional cards
at no charge.
Plan Fee
Up to 1.33% of each purchase amount moved into a plan based on the plan duration, the APR that
would otherwise apply to the purchase amount(s), and other factors. This fee is a fixed finance
charge that will be charged each month that a plan is active. The dollar amount of your plan fee will
be disclosed when you set up a plan. For more information, see About the Plan It feature in Part 2
of your Cardmember Agreement.
Late Payment
Up to $40. If we do not receive the Minimum Payment Due by its Payment Due Date, the fee is $29.
If this happens again within the next 6 billing periods, the fee is $40. However, the late fee will not
exceed the Minimum Payment Due. Paying late may also result in a penalty APR. See Penalty APR
for new transactions above.
Returned Payment
Up to $40. If you make a payment that is returned unpaid the first time we present it to your bank,
the fee is $29. If you do this again within the same billing period or the next 6 billing periods, the fee
is $40. However, the returned payment fee will not exceed the applicable Minimum Payment Due. A
returned payment may also result in a penalty APR. See Penalty APR for new transactions above.
Returned Check
$38 if you use your card to cash a check at one of our approved locations and the check is returned
unpaid. We will also charge you the unpaid amount.
Overlimit
None. See Credit limit and cash advance limit in Part 2.
Account Re-opening
$25 if your Account is cancelled, you ask us to re-open it, and we do so.
Cash Advance
5% of the cash advance transaction (including fees charged by the ATM operator, if any), with a
minimum of $10. We will add this fee to the Cash Advance balance.
Foreign Transaction
2.7% of the converted U.S. dollar amount. This fee is a finance charge. See Part 2 for Converting
charges made in a foreign currency.

Part 1, Part 2 and any supplements or amendments make up your Cardmember Agreement.

CMAENFEEPAPR128

Page 2 of 3

Supplement to the Cardmember Agreement
How Your Reward Program Works
®

Charles Schwab Investor Credit Card from American Express
Things you should know
about this program

®

The Charles Schwab Investor Credit Card from
American Express is only available to you if you
maintain an eligible account at Schwab.
An eligible account means either (1) a Schwab
®

One or Schwab General Brokerage Account
held in your name or in the name of a revocable
living trust where you are the grantor and
trustee or (2) a Schwab Traditional, Roth
or Rollover IRA that is not managed by an
independent investment advisor pursuant to a
direct contractual relationship between you and
such independent advisor. Eligibility is subject to
change.

We may cancel your Charles Schwab Investor
®

Credit Card from American Express Card
Account (Card Account) and participation in
this program if you do not maintain an eligible
account.

How you receive cash back

You will receive cash back for eligible purchases
made on your Card Account. The cash back
you receive is 1.5% of the dollar amount of
eligible purchases during a billing period. Eligible
purchases are purchases made on your Card
Account for goods and services minus returns
and other credits.

Eligible purchases do NOT include:
● fees or interest charges,
● balance transfers,
● cash advances,
● purchases of traveler's checks,
● purchases or reloading of prepaid cards,
● purchases of any cash equivalents, or
● person-to-person transactions.
From time to time, we may make promotional
offers. These offers include terms about how
you can earn cash back. These offer terms may
differ from the terms above concerning cash back
earned for charges to your Card Account. Your
account must not be cancelled or delinquent at
the time of fulfillment of any offers.

When you will not receive
cash back

You will not receive cash back for eligible
purchases posted to your Card Account during
a billing period if the Minimum Payment Due
shown on the statement for that billing period is
not paid by the Payment Due Date shown on that
statement.

Credits for eligible purchases will reduce the
amount of cash back you receive.

How cash back is
deposited

Charles Schwab will deposit cash back into your
eligible account approximately 6 to 8 weeks from
the end of the billing period in which it is earned.
An eligible account will be linked to your Charles
Schwab Investor Credit Card from American

Express at time of Card Account approval. If
you have multiple eligible Schwab accounts and
would like to update your linked account, please
contact Charles Schwab.

When you will forfeit
received cash back

If we or you cancel your Card Account for any reason, you may lose any cash back not already
transferred to your eligible account.

The Cash Back Summary

The cash back shown on your billing statement
under the heading Cash Back Earnings Summary
is only for informational purposes. It does not
show the actual cash back that you may be
entitled to receive. For example, a credit for
eligible purchases posted to your Card Account
can lower the cash back amount.

Other things you should
know about this program

We may change the terms of this program at our discretion. If you violate the terms or abuse this
program, you may forfeit some or all of your cash back.

CMAENPSP0000238

Page 3 of 3

Also, if a credit to your Card Account places
your eligible purchases in a negative status, the
Cash Back Summary on your billing statement
will show a negative balance. It will continue to
show a negative balance until you accumulate
eligible purchases exceeding the negative eligible
purchases.

FDR 1122693

Cardmember Agreement: Part 2 of 2

Doc 28549

How Your American Express Account Works
Introduction
About your Cardmember
Agreement

This document together with Part 1 make up the
Cardmember Agreement (Agreement) for the Account
identified on page 1 of Part 1. Any supplements or
amendments are also part of the Agreement.

When you use the Account (or you sign or keep the
card), you agree to the terms of the Agreement.

Changing the Agreement

We may change this Agreement, subject to applicable
law. We may do this in response to the business, legal or
competitive environment. This written Agreement is a final
expression of the agreement governing the Account. The
written Agreement may not be contradicted by any alleged
oral agreement.

Changes to some terms may require 45 days
advance notice, and we will tell you in the notice if
you have the right to reject a change. We cannot
change certain terms during the first year of your
Cardmembership.

We cannot increase the interest rate on existing balances
except in limited circumstances.

Words we use in
the Agreement

We, us, and our mean the issuer shown on page 1 of
Part 1. You and your mean the person who applied for
this Account and for whom we opened the Account. You
and your also mean anyone who agrees to pay for this
Account. You are the Basic Cardmember. You may
request a card for an Additional Cardmember (see About
Additional Cardmembers in Part 2).
Card means any card or other device that we issue to
access your Account. A charge is any amount added
to your Account, such as purchases, cash advances,
balance transfers, fees and interest charges.

A purchase is a charge for goods, services, or
person-to-person transactions. A cash advance is
a charge to get cash or cash equivalents, including
travelers cheques, gift cheques, foreign currency,
money orders, digital currency, casino gaming chips,
race track wagers, similar offline and online betting
transactions, precious metal coins or bullion and
digital precious metals products. A balance transfer
is a charge to pay an amount you owe on another
credit card account. A person-to-person transaction
is a charge for funds sent to another person or a
™
charge to add funds to your Amex Send Account.
A plan is a portion of your account balance that you
have selected to pay over time through a set number
of monthly payments using Plan It.
To pay by a certain date means to send your payment
so that we receive it and credit it to your Account by
that date (see About your payments in Part 2).

About using your card
Using the card

You may use the card to make purchases. At our
discretion, we may permit you to create plans, make
cash advances or balance transfers. You cannot transfer
balances from any other account issued by us or our
affiliates.
You may arrange for certain merchants and third parties
to store your card number and expiration date, so that, for
example:
● the merchant may charge your account at regular
intervals; or
● you may make charges using that stored card
information.

Promise to pay

We may (but are not required to) tell these merchants
and third parties if your expiration date or card
number changes or if your account status is updated,
including if your account is cancelled. If you do not
want us to share your updated account information,
please contact us using the number on the back of
your card.
Keep your card safe and don't let anyone else use it.
If your card is lost or stolen or your Account is being
used without your permission, contact us right away.
You may not use your Account for illegal activities.

You promise to pay all charges, including:
● charges you make, even if you do not present your card or sign for the transaction,
● charges that other people make if you let them use your Account, and
● charges that Additional Cardmembers make or permit others to make.

Credit limit and cash
advance limit

We assign a Credit Limit to your Account. We may make
part of your Credit Limit available for cash advances (Cash
Advance Limit). There may also be a limit on the amount
you can withdraw from ATMs in a given period. The Credit
Limit and Cash Advance Limit are shown on page 1 of
Part 1 and on each billing statement.
We may increase or reduce your Credit Limit and Cash
Advance Limit. We may do so even if you pay on time and
your Account is not in default.
You agree to manage your Account so that:

Version 1122693

Page 1 of 8

● your Account balance (including fees and interest)
is not more than your Credit Limit, and
● your cash advance balance (including fees and
interest) is not more than your Cash Advance
Limit.
We may approve charges that cause your Account
balance to go over your Credit Limit. If we do this,
we will not charge an overlimit fee. If we ask you to
promptly pay the amount of your Account balance
above your Credit Limit, you agree to do so.

Limits on person-to-person
transactions

Your person-to-person transactions may not exceed the
$2,000 person-to-person transactions limit within any 30day period.

You agree to manage your Account so that the total
of your person-to-person transactions in any 30-day
period do not exceed the limit on person-to-person
transactions.
We may not approve a person-to-person transaction if
it would cause your Account to exceed the person-toperson transaction limit or your Credit Limit.

Declined transactions

About the Plan It feature

We may decline to authorize a charge. Reasons we may
do this include suspected fraud and our assessment of
your creditworthiness. This may occur even if the charge
would not cause you to go over your Credit Limit

and your Account is not in default. We are not
responsible for any losses you incur if we do not
authorize a charge. And we are not responsible if any
merchant refuses to accept the card.

We may offer you Plan It, which allows you to create a
payment plan for qualifying purchases or a qualifying
amount, subject to a plan fee. This fee is a fixed finance
charge that will be charged each month that a plan is
active.

Your ability to initiate plans will be based on a variety
of factors such as your creditworthiness or your
Credit Limit. You will not be able to initiate plans if
your Account is cancelled. You will also not be able
to initiate plans if one or more of your American
Express accounts is enrolled into a debt management
program, or has a payment that is returned unpaid,
or is delinquent. We will tell you the number of active
plans you may have and we may change this number
at any time. The plan durations offered to you, and
your ability to include multiple qualifying purchases
or a qualifying amount in a single plan, will be at
our discretion and will be based on a variety of
factors such as your creditworthiness, the purchase
amount(s), and your Account history. You agree to
manage your Account so that the total of your plan
balances (including plan fees) is not more than your
Credit Limit.

You may use this feature by selecting qualifying purchases
or a qualifying amount and a plan duration. You will be
able to view the monthly plan payments, including the plan
fee, for your selection. Each plan fee will be disclosed
prior to your establishing the applicable plan and will be
based on the plan duration, the APR that would otherwise
apply to the purchase amount(s), and other factors. When
you set up a plan, the purchases or amount will be moved
to a plan balance and will be subject to a plan fee instead
of the APR for purchases.
A qualifying purchase for Plan It is a purchase of at least
a specified dollar amount. A qualifying amount for Plan
It is a specified portion of your balance. These qualifying
purchases or a qualifying amount do not include: cash
or cash equivalents, purchases subject to Foreign
Transaction Fees, or any fees owed to us, including
Annual Membership fees.

Plans cannot be cancelled after they have been set
up but you can choose to pay them early by paying
the New Balance shown on your most recent billing
statement in full. If you pay a plan off early, you will
not incur any future plan fees on that plan.

About your payments
When you must pay

How to make payments

How we apply payments
and credits

Version 1122693

You must pay at least the Minimum Payment Due by the
Payment Due Date. The Minimum Payment Due and
Payment Due Date are shown on each billing statement.

Minimum Payment Due in such time and manner
by the Payment Due Date shown on your billing
statement.

Each statement also states the time and manner by which
you must make your payment for it to be credited as
of the same day it is received. For your payment to be
considered on time, we must receive at least the

Each statement also shows a Closing Date. The
Closing Date is the last day of the billing period
covered by the statement. Each Closing Date is about
30 days after the previous statement's Closing Date.

Make payments to us in U.S. dollars with:
● a single check drawn on a U.S. bank, or
● a single negotiable instrument clearable through the
U.S. banking system, for example a money order, or
● an electronic payment that can be cleared through the
U.S. banking system.

If we receive it after that time, we will credit the
payment on the day after we receive it.

When making a payment by mail:
● make a separate payment for each account,
● mail your payment to the address shown on the
payment coupon on your billing statement, and
● write your Account number on your check or negotiable
instrument and include the payment coupon.
If your payment meets the above requirements, we will
credit it to your Account as of the day we receive it, as
long as we receive it by the time disclosed in your billing
statement.
Your Account may have balances with different interest
rates. For example, purchases may have a lower interest
rate than cash advances. Your Account may also have
plan balances which are assessed plan fees. If your
Account has balances with different interest rates, plan
balances, or plan fees, here is how we generally apply
payments in a billing period:
● We apply your payments, up to the Minimum Payment
Due, first to any plan amounts included in your
Minimum Payment Due, then to the balance subject to
the lowest interest rate, and then to balances subject to
higher interest rates.

Page 2 of 8

If your payment does not meet the above
requirements, there may be a delay in crediting your
Account. This may result in late fees and additional
interest charges (see How Rates and Fees Work on
page 2 of Part 1).
We will not accept a payment made in a foreign
currency or a payment drawn on an account at a
bank located outside of the U.S.
If we process a late payment, a partial payment, or a
payment marked with any restrictive language, that
will have no effect on our rights and will not change
this Agreement.
● After the Minimum Payment Due has been paid,
we apply your payments to the balance subject
to the highest interest rate, then to balances
subject to lower interest rates, and then to any
plan balances.
In most cases, we apply a credit to the same balance
as the related charge. For example, we apply a
credit for a purchase to the purchase balance. We
may apply payments and credits within balances,
and among balances with the same interest rate, in
any order we choose. If you receive a credit for a
purchase placed into a plan, you must call us at the
number on the back of your card to have the credit
applied to the plan balance.

About your Minimum Payment Due
How we calculate your
Minimum Payment Due

To calculate the Minimum Payment Due for each
billing statement, we start with the highest of:
(1) Interest charged on the billing statement plus 1%
of the New Balance (excluding any interest, penalty
fees, overlimit amount, and plan balances); or
(2) 2% of the New Balance (excluding any penalty
fees, overlimit amount, and plan balances); or
(3) $40.

EXAMPLE: Assume that your New Balance is $2,900,
interest is $29.57, and you have no active plans,
overlimit amount, penalty fees, or amounts past due.
(1) $29.57 + 1% multiplied by ($2,900 - $29.57) =
$58.27
(2) $58 (2% of $2,900)

Then we add any penalty fees shown on the billing
statement, up to 1/24th of any overlimit amount, any
plan payment due, and any amount past due.

(3) $40

Your Minimum Payment Due will not exceed your
New Balance. You may pay more than the Minimum
Payment Due, up to your New Balance, at any time.

If your account has any active plans, overlimit
amount, penalty fees, or amounts past due, your
Minimum Payment Due will be higher.

● You are not charged interest on purchases when
you are in an Interest Free Period.
● Your account enters an Interest Free Period when
you pay your New Balance as shown on your
statement by the Payment Due Date or your
account had no previous balance.
● When your account is not in an Interest Free
Period, we charge interest on purchases from the
date of the transaction.
● After you enter an Interest Free Period again,
interest may appear on your next billing statement.
This reflects interest charged from the beginning of
that billing cycle through the date the payment was
received.

● If you have an active plan created through Plan It,
you can enter an Interest Free Period by paying at
least the Balance Adjusted for Plans (or Adjusted
Balance) by the Payment Due Date.
● Balance Transfers and Cash Advances will be
charged interest from the date of the transaction
and do not have an Interest Free Period.

The highest of (1), (2) or (3) is $58.27

About interest charges
When we charge interest

How we calculate interest

We calculate interest for a billing period by first figuring the interest on each balance. Different categories of
transactions--such as purchases and cash advances--may have different interest rates. Balances within each
category may also have different interest rates.
We use the Average Daily Balance method
(including new transactions) to figure interest
charges for each balance. The total interest charged
for a billing period is the sum of the interest charged
on each balance.
Interest
The interest charged for a balance in a billing period,
except for variations caused by rounding, equals:
● Average Daily Balance (ADB) multiplied by
● Daily Periodic Rate (DPR) multiplied by
● number of days the DPR was in effect.
ADB
To get the ADB for a balance, we add up its daily
balances. Then we divide the result by the number
of days the DPR for that balance was in effect. If the
daily balance is negative, we treat it as zero.
DPR
A DPR is 1/365th of an APR, rounded to one
tenthousandth of a percentage point. Your DPRs are
shown in How Rates and Fees Work on page 2 of
Part 1.
EXAMPLE: Calculating Interest
Assume that you have a single interest rate of
15.99%, your ADB is $2,250 and there are 30 days in
the billing period.
The DPR is 15.99% divided by 365 days = 0.0438%
The Interest is $2,250 multiplied by 0.0438%
multiplied by 30 days = $29.57

Version 1122693

For more details about how we calculate your interest
charges, see the How we calculate interest section of
this agreement.

Page 3 of 8

Daily Balance
For each day a DPR is in effect, we figure the daily
balance by:
● taking the beginning balance for the day,
● adding any new charges,
● subtracting any payments or credits; and
● making any appropriate adjustments.
We add a new charge to a daily balance as of its
transaction date.
Beginning balance
For the first day of a billing period, the beginning
balance is the ending balance for the prior billing
period, including unpaid interest. For the rest of the
billing period, the beginning balance is the previous
day's daily balance plus an amount of interest equal
to the previous day's daily balance multiplied by the
DPR for that balance. This method of figuring the
beginning balance results in daily compounding of
interest.
When an interest rate changes, the new DPR may
come into effect during--not just at the beginning of-the billing period. When this happens, we will create
a new balance and apply the new DPR to it. To get
the beginning balance on the first day for this new
balance, we multiply the previous day's daily balance
by the old DPR and add the result to that day's daily
balance.
Other methods
To figure the ADB and interest charges, we may use
other formulas or methods that produce equivalent
results. Also, we may choose not to charge interest on
certain types of charges.

Determining the Prime Rate

We use the Prime Rate from the rates section of The Wall Street Journal. The Prime Rate for each billing period
is the Prime Rate published in The Wall Street Journal on the Closing Date of the billing period.
The Wall Street Journal may not publish the Prime Rate on that day. If it does not, we will use the Prime Rate
from the previous day it was published. If The Wall Street Journal is no longer published, we may use the Prime
Rate from any other newspaper of general circulation in New York, New York. Or we may choose to use a
similar published rate.
If the Prime Rate increases, variable APRs (and corresponding DPRs) will increase. In that case, you may pay
more interest and may have a higher Minimum Payment Due. When the Prime Rate changes, the resulting
changes to variable APRs take effect as of the first day of the billing period.

Other important information
Military Lending Act

Federal law provides important protections to members of the Armed Forces and their dependents relating
to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces
and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as
applicable to the credit transaction or account: the costs associated with credit insurance premiums; fees for
ancillary products sold in connection with the credit transaction; any application fee charged (other than certain
application fees for specified credit transactions or accounts); and any participation fee (other than certain
participation fees for a credit card account).
To listen to this statement, as well as a description of your payment obligation for this Account, call us at
855-531-0379.
If you are a covered borrower, the Claims Resolution section of this Agreement will not apply to you in
connection with this Account. Instead, the Claims Resolution for Covered Borrowers section will apply.

About Additional
Cardmembers

At your request, we may issue cards to Additional
Cardmembers. They do not have accounts with us
but they can use your Account subject to the terms
of this Agreement. We may report an Additional
Cardmember's use of your Account to credit reporting
agencies.
You are responsible for all use of your Account by
Additional Cardmembers and anyone they allow to
use your Account. You must pay for all charges they
make.
You authorize us to give Additional Cardmembers
information about your Account and to discuss it with
them.

If you want to cancel an Additional Cardmember's
right to use your Account (and cancel their card) you
must tell us.
If an Annual Membership fee applies for an Additional
Card, please refer to the refund policy disclosed
in the Closing your Account sub-section of your
Cardmember Agreement. If a single Annual
Membership fee applies for a group of Additional
Cards on your Account, this policy will apply when
you cancel the first or oldest Additional Card. If an
Annual Membership fee applies to Additional Cards
on your Account, it is shown on page 2 of Part 1 of the
Cardmember Agreement.

Converting charges made in a
foreign currency

If you make a charge in a foreign currency, AE Exposure Management Ltd. ("AEEML") will convert it into U.S.
dollars on the date we or our agents process it, so that we bill you for the charge in U.S. dollars based upon this
conversion. Unless a particular rate is required by law, AEEML will choose a conversion rate that is acceptable
to us for that date. The rate AEEML uses is no more than the highest official rate published by a government
agency or the highest interbank rate AEEML identifies from customary banking sources on the conversion date
or the prior business day. This rate may differ from rates that are in effect on the date of your charge. We will bill
charges converted by establishments (such as airlines) at the rates they use.

Changing your billing address

You must notify us immediately if you change the:
● mailing address to which we send billing
statements; or
● e-mail address to which we send notice that your
billing statement is available online.

Closing your Account

If you have more than one account, you need to notify
us separately for each account.
We may update your billing address if we receive
information that it has changed or is incorrect.

You may close your Account by calling us or writing to us.
If an Annual Membership fee applies, we will refund this fee if you notify us that you are voluntarily closing your
Account within 30 days of the Closing Date of the billing statement on which that fee appears. For cancellations
after this 30 day period, the Annual Membership fee is non-refundable. If an Annual Membership fee applies to
your Account, it is shown on page 1 and page 2 of Part 1 of the Cardmember Agreement.
If your billing address is in the Commonwealth of Massachusetts at the time you close your account, this policy
will not apply to you.

Cancelling or suspending your
Account

We may:
● cancel your Account,
● suspend the ability to make charges,
● cancel or suspend any feature on your Account,
and
● notify merchants that your Account has been
cancelled or suspended.
If we do any of these, you must still pay us for all
charges under the terms of this Agreement.

Version 1122693

Page 4 of 8

We may do any of these things at our discretion, even
if you pay on time and your Account is not in default.
If your Account is cancelled, you must destroy your
cards.
We may agree to reinstate your Account after a
cancellation. If we do this, we may:
● reinstate any additional cards issued on your
Account,
● charge you any applicable annual fees, and
● charge you a fee for reinstating the Account.

About default

Collection costs
Credit reports

Sending you notices
We may contact you

About insurance products

How we handle electronic
debits from your checking
account

Privacy Act of 1974 notice

Convenience checks

Changing benefits
Assigning the Agreement
Assigning claims

Version 1122693

We may consider your Account to be in default if:
If we consider your Account in default, we may, to the
● you violate a provision of this Agreement,
extent permitted by federal and applicable state law:
● you give us false information,
● suspend your ability to make charges,
● you file for bankruptcy,
● cancel or suspend any feature on your Account,
● you default under another agreement you have
● require you to pay more than your Minimum
with us or an affiliate,
Payment Due immediately, and
● you become incapacitated or die, or
● require you to pay your Account balance
● we believe you are unable or unwilling to pay your
immediately.
debts when due.
You agree to pay all reasonable costs, including attorneys' fees, that we incur to collect amounts you owe.
You agree that we will obtain credit reports about you, investigate your ability to pay, and obtain information
about you from other sources including information to verify and re-verify your employment and income. And
you agree that we will use such information for any purposes (for example, marketing to you or evaluating you
for a new account), subject to applicable law.
You agree that we will give information about the Account to credit reporting agencies. We will tell a credit
reporting agency if you fail to comply with any term of this Agreement. This may have a negative impact on your
credit report.
If you believe information we have given to a credit reporting agency is incorrect, write to us at: American
Express Credit Bureau Unit, P.O. Box 981537, El Paso, TX 79998-1537. When you write to us, tell us the
specific information you believe is incorrect.
We mail you notices through the U.S. mail, postage prepaid, and address them to you at the latest billing
address on our records. Any notice that we send you this way is deemed to be given when deposited in the U.S.
mail.
Servicing and Collections
If we need to contact you to service your account or to collect amounts you owe, you authorize us (and our
affiliates, agents and contractors, such as debt collection agencies and service providers) to contact you at
any phone number or email address you provide, from which you contact us, or at which we believe we can
reach you. We may contact you in any way, such as calling, texting, emailing, sending mobile application push
notifications or using any other method of communication permitted by law. We may contact you using an
automated dialer or prerecorded messages. We may contact you on a mobile, wireless or similar device, even if
you are charged for it.
Call monitoring
We may monitor and record any calls between you and us.
We or our affiliates may tell you about insurance and non-insurance products, services or features that
may have a fee. One of our affiliates may act on behalf of a provider of these products. The affiliate may be
compensated for this. The insurance products are not offered or sold by us or on our behalf. Our affiliates may
get additional compensation when AMEX Assurance Company or another affiliate is the insurer or reinsurer.
Compensation may influence what products and providers we or our affiliates tell you about.
We may share information about you with our affiliates so they can identify products that may interest you. We
may be compensated for this information.
When you pay us by check, you authorize us to
If we do this, your payment may be deducted from
electronically deduct the amount from your bank or
your bank or other asset account on the same day
other asset account.
we receive your check. Also, you will not receive that
We may process the check electronically by
cancelled check with your bank or asset account
transmitting to your financial institution:
billing statement.
● the amount,
If we cannot collect the funds electronically, we may
● the routing number,
issue a draft against your bank or other asset account
● the account number, and
for the amount of the check.
● the check serial number.
Some federal agencies may accept the card under authority of statute. When you make charges at these
agencies, we collect certain charge information. That information may be put to routine uses such as
processing, billing and collections. It may also be aggregated for reporting, analysis and marketing use. Other
routine uses by agencies may be published in the Federal Register.
Convenience checks (including balance transfer
add the fee to the same balance that we add the
checks) are checks that we may send you to access
convenience check transaction to.
your Account. The following terms will apply to use
We will charge $29 each time you ask us to stop
of those checks unless otherwise disclosed with the
payment on a convenience check.
check.
A convenience check is not a card. You may not use
If you use a convenience check, we may decline it.
convenience checks to pay this or any other account
If we decline it, you may have to pay returned check
with us or our affiliates. If you use a convenience
fees or other penalties to whomever you wrote the
check, we will apply the:
● cash advance APR if you make it payable to cash,
check.
to you, or to a bank, brokerage or similar asset
If you use a convenience check and we honor it,
account, or to a mortgage or insurance provider.
we will charge interest beginning as of the date we
receive the check. You cannot avoid paying interest on ● purchase APR if you make it payable to a
merchant.
convenience check transactions.
● balance transfer APR if you use it to transfer a
We will charge a fee for each convenience check
balance from another creditor.
transaction. This fee is 3% of the transaction, with a
● penalty APR if it applies to your Account.
minimum of $5. This fee is a finance charge. We will
We have the right to add, modify or delete any benefit, service, or feature of your Account at our discretion.
We may sell, transfer or assign this Agreement and your Account. We may do so at any time without notifying
you. You may not sell, assign or transfer your Account or any of your obligations under this Agreement.
If you dispute a charge with a merchant, we may credit the Account for all or part of the disputed charge. If
we do so, you assign and transfer to us all rights and claims (excluding tort claims) against the merchant. You
agree that you will not pursue any claim against the merchant for the credited amount. And you must cooperate
with us if we decide to do so.
Page 5 of 8

We do not waive our rights
Governing law

Notice to Oregon Residents
Notice for residents of
Washington State

We may choose to delay enforcing or to not exercise rights under this Agreement. If we do this, we do not waive
our rights to exercise or enforce them on any other occasion.
Utah law and federal law govern this Agreement and
In addition, if your billing address is in the State
your Account. They govern without regard to internal
of Maryland, to the extent, if any, that Maryland
principles of conflicts of law. We are located in Utah.
law applies to your account, we elect to offer your
We hold your Account in Utah. We entered into this
card account pursuant to Title 12, Subtitle 9 of the
Agreement with you in Utah.
Maryland Commercial Law Article.
Service charges not in excess of those permitted by law will be charged on the outstanding balances from
month to month. You may pay more than the Minimum Payment Due, up to your entire outstanding balance, at
any time.
In accordance with the Revised Code of Washington Statutes, Section 63.14.167, you are not responsible for
payment of interest charges that result solely from a merchant's failure to transmit to us within seven working
days a credit for goods or services accepted for return or forgiven if you have notified us of the merchant's delay
in posting such credit, or our failure to post such credit to your account within three working days of our receipt
of the credit.

Claims Resolution
Most customer concerns can be resolved by
calling our Customer Service Department at the
number listed on the back of your card. In the
event Customer Service is unable to resolve
a complaint to your satisfaction, this section
explains how claims can be resolved through
mediation, arbitration or litigation. It includes
an arbitration provision. You may reject the
arbitration provision by sending us written
notice within 45 days after your first card
purchase. See Your Right to Reject Arbitration
below.
For this section, you and us includes any
corporate parents, subsidiaries, affiliates or
related persons or entities. Claim means any
current or future claim, dispute or controversy
relating to your Account(s), this Agreement, or
any agreement or relationship you have or had
with us, except for the validity, enforceability
or scope of the Arbitration provision. Claim
includes but is not limited to: (1) initial claims,
counterclaims, crossclaims and third-party claims;
(2) claims based upon contract, tort, fraud,
statute, regulation, common law and equity;
(3) claims by or against any third party using
or providing any product, service or benefit in
connection with any account; and (4) claims that
arise from or relate to (a) any account created
under any of the agreements, or any balances on
any such account, (b) advertisements, promotions
or statements related to any accounts, goods or
services financed under any accounts or terms
of financing, (c) benefits and services related
to card membership (including fee-based or
free benefit programs, enrollment services and
rewards programs) and (d) your application for
any account. You may not sell, assign or transfer
a claim.
Sending a Claim Notice
Before beginning a lawsuit, mediation or
arbitration, you and we agree to send a written
notice (a claim notice) to each party against
whom a claim is asserted, in order to provide
an opportunity to resolve the claim informally or
through mediation. Go to americanexpress.com/
claim for a sample claim notice. The claim notice
must describe the claim and state the specific
relief demanded. Notice to you may be provided
by your billing statement or sent to your billing
address. Notice to us must include your name,
address and Account number and be sent to
American Express ADR c/o CT Corporation
System, 28 Liberty Street, New York, New York
10005. If the claim proceeds to arbitration, the
amount of any relief demanded in a claim notice
will not be disclosed to the arbitrator until after the
arbitrator rules.
Version 1122693

Mediation
In mediation, a neutral mediator helps parties
resolve a claim. The mediator does not decide
the claim but helps parties reach agreement.
Before beginning mediation, you or we must
first send a claim notice. Within 30 days after
sending or receiving a claim notice, you or we
may submit the claim to JAMS (1-800-352-5267,
jamsadr.com) or the American Arbitration
Association ("AAA") (1-800-778-7879, adr.org)
for mediation. We will pay the fees of the
mediator. All mediation-related communications
are confidential, inadmissible in court and not
subject to discovery.
All applicable statutes of limitation will be tolled
from the date you or we send the claim notice
until termination of the mediation. Either you or
we may terminate the mediation at any time.
The submission or failure to submit a claim to
mediation will not affect your or our right to elect
arbitration.
Arbitration
You or we may elect to resolve any claim by
individual arbitration. Claims are decided by a
neutral arbitrator.
If arbitration is chosen by any party, neither
you nor we will have the right to litigate that
claim in court or have a jury trial on that
claim. Further, you and we will not have
the right to participate in a representative
capacity or as a member of any class
pertaining to any claim subject to arbitration.
Arbitration procedures are generally simpler
than the rules that apply in court, and
discovery is more limited. The arbitrator's
authority is limited to claims between you
and us alone. Claims may not be joined
or consolidated unless you and we agree
in writing. An arbitration award and any
judgment confirming it will apply only to
the specific case and cannot be used in any
other case except to enforce the award. The
arbitrator's decisions are as enforceable
as any court order and are subject to very
limited review by a court. Except as set forth
below, the arbitrator's decision will be final
and binding. Other rights you or we would
have in court may also not be available in
arbitration.
Initiating Arbitration
Before beginning arbitration, you or we must first
send a claim notice. Claims will be referred to
either JAMS or AAA, as selected by the party
electing arbitration. Claims will be resolved
pursuant to this Arbitration provision and the
selected organization's rules in effect when
Page 6 of 8

the claim is filed, except where those rules
conflict with this Agreement. If we choose the
organization, you may select the other within
30 days after receiving notice of our selection.
Contact JAMS or AAA to begin an arbitration
or for other information. Claims also may be
referred to another arbitration organization if
you and we agree in writing or to an arbitrator
appointed pursuant to section 5 of the Federal
Arbitration Act, 9 U.S.C. sec. 1-16 (FAA).
We will not elect arbitration for any claim you
file in small claims court, so long as the claim
is individual and pending only in that court.
You or we may otherwise elect to arbitrate
any claim at any time unless it has been filed
in court and trial has begun or final judgment
has been entered. Either you or we may delay
enforcing or not exercise rights under this
Arbitration provision, including the right to
arbitrate a claim, without waiving the right to
exercise or enforce those rights.
Limitations on Arbitration
If either party elects to resolve a claim by
arbitration, that claim will be arbitrated
on an individual basis. There will be
no right or authority for any claims to
be arbitrated on a class action basis or
on bases involving claims brought in a
purported representative capacity on behalf
of the general public, other cardmembers
or other persons similarly situated.
Notwithstanding any other provision and
without waiving the right to appeal such
decision, if any portion of these Limitations on
Arbitration is deemed invalid or unenforceable,
then the entire Arbitration provision (other than
this sentence) will not apply.
Arbitration Procedures
This Arbitration provision is governed by
the FAA. The arbitrator will apply applicable
substantive law, statutes of limitations and
privileges. The arbitrator will not apply any
federal or state rules of civil procedure or
evidence in matters relating to evidence
or discovery. Subject to the Limitations on
Arbitration, the arbitrator may otherwise award
any relief available in court. You and we agree
that the arbitration will be confidential. You
and we agree that we will not disclose the
content of the arbitration proceeding or its
outcome to anyone, but you or we may notify
any government authority of the claim as
permitted or required by law.
If your claim is for $10,000 or less, you
may choose whether the arbitration will be
conducted solely on the basis of documents,

through a telephonic hearing, or by an in-person
hearing. At any party's request, the arbitrator will
provide a brief written explanation of the award.
The arbitrator's award will be final and binding,
subject to each party's right to appeal as stated
in this section and/or to challenge or appeal an
arbitration award pursuant to the FAA. To initiate
an appeal, a party must notify the arbitration
organization and all parties in writing within 35
days after the arbitrator's award is issued. The
arbitration organization will appoint a threearbitrator panel to decide anew, by majority vote
based on written submissions, any aspect of the
decision objected to. The appeal will otherwise
proceed pursuant to the arbitration organization's
appellate rules. Judgment upon any award may
be entered in any court having jurisdiction. At your
election, arbitration hearings will take place in the
federal judicial district of your residence.
Arbitration Fees and Costs
You will be responsible for paying your share
of any arbitration fees (including filing,
administrative, hearing or other fees), but only up
to the amount of the filing fees you would have
incurred if you had brought a claim in court. We
will be responsible for any additional arbitration

fees. At your written request, we will consider in
good faith making a temporary advance of your
share of any arbitration fees, or paying for the
reasonable fees of an expert appointed by the
arbitrator for good cause.
Additional Arbitration Awards
If the arbitrator rules in your favor for an
amount greater than any final offer we made
before the final hearing in arbitration, the
arbitrator's award will include: (1) any money to
which you are entitled, but in no case less than
$5,000; and (2) any reasonable attorneys' fees,
costs and expert and other witness fees.
Your Right to Reject Arbitration
You may reject this Arbitration provision by
sending a written rejection notice to us at:
American Express, P.O. Box 981556, El Paso,
TX 79998. Go to americanexpress.com/reject
for a sample rejection notice. Your rejection
notice must be mailed within 45 days after your
first card purchase. Your rejection notice must
state that you reject the Arbitration provision
and include your name, address, Account
number and personal signature. No one else
may sign the rejection notice. If your rejection
notice complies with these requirements, this

Arbitration provision and any other arbitration
provisions in the cardmember agreements for
any other currently open American Express
accounts you have will not apply to you, except
for Corporate Card accounts and any claims
subject to pending litigation or arbitration at the
time you send your rejection notice. Rejection
of this Arbitration provision will not affect your
other rights or responsibilities under this Claims
Resolution section or the Agreement. Rejecting
this Arbitration provision will not affect your
ability to use your card or any other benefit,
product or service you may have with your
Account.
Continuation
This section will survive termination of your
Account, voluntary payment of your Account
balance, any legal proceeding to collect a debt,
any bankruptcy and any sale of your Account
(in the case of a sale, its terms will apply to the
buyer of your Account). If any portion of this
Claims Resolution section, except as otherwise
provided in the Limitations on Arbitration
subsection, is deemed invalid or unenforceable,
it will not invalidate the remaining portions of
this Claims Resolution section.

Claims Resolution for Covered Borrowers
Most customer concerns can be resolved by
calling our Customer Service Department at the
number listed on the back of your Card. In the
event Customer Service is unable to resolve a
complaint to your satisfaction, this section explains
how claims can be resolved through litigation,
non-binding mediation or, at your election,
arbitration. You are not required to resolve any
claims by mediation and arbitration. For this
section, you and us includes any corporate
parents, subsidiaries, affiliates or related persons
or entities. Claim means any current or future
claim, dispute or controversy relating to your
Card account, this Agreement, or any agreement
or relationship you have or had with us, except
for the validity, enforceability or scope of the
Arbitration provision. Claim includes but is not
limited to: (1) initial claims, counterclaims, crossclaims and third-party claims; (2) claims based
upon contract, tort, fraud, statute, regulation,
common law and equity; (3) claims by or against
any third party using or providing any product,
service or benefit in connection with any account;
and (4) claims that arise from or relate to (a) any
account created under any of the agreements
or any balances on any such account, (b)
advertisements, promotions or statements related
to any accounts, goods or services financed
under any accounts or terms of financing, (c)
benefits and services related to Card membership
(including fee-based or free benefit programs,
enrollment services and rewards programs) and
(d) your application for any account. You may not
sell, assign or transfer a claim.
Sending a Claim Notice
Before beginning a lawsuit, arbitration or
non-binding mediation, you may send a
written notice (a claim notice) to us. Go to
americanexpress.com/claim for a sample claim
notice. The claim notice should describe the claim
and state the specific relief demanded. We may
also request that we resolve a claim by mediation
or arbitration, but you are not required to accept
Version 1122693

our request. We may include our request with
your billing statement or mail it to your home
address. Notice to us must include your name,
address and Account number and be sent to
American Express ADR c/o CT Corporation
System, 28 Liberty Street, New York, New
York 10005. If the claim proceeds to litigation,
mediation or arbitration, the amount of any
relief demanded in a claim notice will not be
disclosed. You are not required to resolve
your claim through mediation or arbitration.
You may decline our request to resolve a
claim through mediation or arbitration. You
may elect to resolve your claim through
litigation.
Mediation
If you elect to resolve your claim through
mediation, a neutral mediator will help
resolve the claim. The mediator does not
decide the claim but helps parties reach
agreement. Before beginning mediation, you
or we must first send a claim notice. Within
30 days after sending or receiving a claim
notice, you or we may submit the claim to
JAMS (1-800-352-5267, jamsadr.com) or
the American Arbitration Association ("AAA")
(1-800-778-7879, adr.org) for mediation. We
will pay the fees of the mediator. All mediationrelated communications are confidential,
inadmissible in court and not subject to
discovery. All applicable statutes of limitation
will be tolled from the date you or we send the
claim notice until termination of the mediation.
Either you or we may terminate the mediation
at any time. The submission or failure to submit
a claim to mediation will not affect your or
our right to elect litigation or arbitration. The
outcome of mediation proceedings is nonbinding. You may proceed to litigation or
arbitration regardless of the outcome of
mediation.
Arbitration
You may elect, but are not required, to resolve
any claim by individual arbitration. We may
Page 7 of 8

also request to resolve any claim by individual
arbitration, but you are not required to accept
our request. Claims are decided by a neutral
arbitrator.
If you elect or agree to resolve a claim
through arbitration, your or our right to
litigate that claim in court or have a jury trial
on that claim may be limited. Further, you
and we may not have the right to participate
in a representative capacity or as a member
of any class pertaining to any claim subject
to arbitration. Arbitration procedures are
generally simpler than the rules that apply
in court, and discovery is more limited. The
arbitrator's authority is limited to claims
between you and us alone. Claims may not
be joined or consolidated unless you and
we agree in writing. An arbitration award
and any judgment confirming it will apply
only to the specific case and cannot be
used in any other case except to enforce
the award. The arbitrator's decisions are
as enforceable as any court order and are
subject to very limited review by a court.
Except as set forth below, the arbitrator's
decision will be final and binding. Other
rights you or we would have in court may
also not be available in arbitration.
Initiating Arbitration
If you and we agree to proceed to arbitration,
claims will be referred to either JAMS or
AAA, as selected by the party electing
arbitration. Claims will be resolved pursuant
to this Arbitration provision and the selected
organization's rules in effect when the claim is
filed, except where those rules conflict with this
Agreement.
If we choose the organization, you may select
the other within 30 days after receiving notice
of our selection.
Contact JAMS or AAA to begin an arbitration
or for other information. Claims also may be
referred to another arbitration organization if

you and we agree in writing or to an arbitrator
appointed pursuant to section 5 of the Federal
Arbitration Act, 9 U.S.C. sec. 1-16 (FAA). We
will not request arbitration for any claim you file
in small claims court, so long as the claim is
individual and pending only in that court. You
may otherwise elect to arbitrate any claim at any
time unless it has been filed in court and trial has
begun or final judgment has been entered.
Limitations on Arbitration
If the parties agree to resolve a claim by
arbitration, that claim will be arbitrated on an
individual basis pursuant to that agreement,
and the agreement would not allow claims
to be arbitrated on a class action basis or on
bases involving claims brought in a purported
representative capacity on behalf of the
general public, other Cardmembers, or other
persons similarly situated.
Notwithstanding any other provision and without
waiving the right to appeal such decision, if
any portion of these Limitations on Arbitration
provisions is deemed invalid or unenforceable,
then the entire Arbitration provision (other than this
sentence) will not apply.
Arbitration Procedures
This Arbitration provision is governed by the FAA.
The arbitrator will apply applicable substantive
law, statutes of limitations and privileges. The
arbitrator will not apply any federal or state rules
of civil procedure or evidence in matters relating to
evidence or discovery. Subject to the Limitations

Version 1122693

on Arbitration provisions, the arbitrator may
otherwise award any relief available in court.
You and we agree that the arbitration will be
confidential. You and we agree that we will
not disclose the content of the arbitration
proceeding or its outcome to anyone, but you
or we may notify any government authority of
the claim as permitted or required by law.
If your claim is for $10,000 or less, you
may choose whether the arbitration will be
conducted solely on the basis of documents,
through a telephonic hearing, or by an in
person hearing. At any party's request, the
arbitrator will provide a brief written explanation
of the award. The arbitrator's award will be
final and binding, subject to each party's right
to appeal as stated in this section and/or
to challenge or appeal an arbitration award
pursuant to the FAA. To initiate an appeal, a
party must notify the arbitration organization
and all parties in writing within 35 days after
the arbitrator's award is issued. The arbitration
organization will appoint a three-arbitrator panel
to decide anew, by majority vote based on
written submissions, any aspect of the decision
objected to. The appeal will otherwise proceed
pursuant to the arbitration organization's
appellate rules. Judgment upon any award
may be entered in any court having jurisdiction.
At your election, arbitration hearings will take
place in the federal judicial district of your
residence.

Page 8 of 8

Arbitration Fees and Costs
You will be responsible for paying your share
of any arbitration fees (including filing,
administrative, hearing or other fees), but only
up to the amount of the filing fees you would
have incurred if you had brought a claim in
court. We will be responsible for any additional
arbitration fees. At your written request, we
will consider in good faith making a temporary
advance of your share of any arbitration fees,
or paying for the reasonable fees of an expert
appointed by the arbitrator for good cause.
Additional Arbitration Awards
If the arbitrator rules in your favor for an
amount greater than any final offer we made
before the final hearing in arbitration, the
arbitrator's award will include: (1) any money to
which you are entitled, but in no case less than
$5,000; and (2) any reasonable attorneys' fees,
costs and expert and other witness fees.
Continuation
This section will survive termination of your
Account, voluntary payment of your Account
balance, any legal proceeding to collect a debt,
any bankruptcy and any sale of your Account
(in the case of a sale, its terms will apply to the
buyer of your Account). If any portion of this
Claims Resolution section, except as otherwise
provided in the Limitations on Arbitration
subsection, is deemed invalid or unenforceable,
it will not invalidate the remaining portions of
this Claims Resolution section.

